SUPREME COURT OF T:HE UNITED STATES
NO.20‑
WILLIAM GEOFFROY,
Petitioner,

TOWN OF WINCHENDON, MASSACHUSETTS; SCOTT LIVINGSTON; JAMES
KREIDLER;DAVID WAISH,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI
Filed by;
Danielle Callahan GiIl, Esq.
Supreme Court Bar #313433
Callahan Law Group, LLC
400 TradeCenter, Suite 5900
Woburn, MA 01801
Phone: (617) 657-3489
Fax: (617) 395-2680
dcallahan@,callahanlaw group.com

(a)QUEST10N PRESENTED FOR REⅥ 】田″
Whether a waiver of age discrimination claims can be found to be voluntary
when an employer verbally revokes an employee's twenty-one (21) day review, as
required by 29 U.S.C. S 626(D?

2

(bΣ

̲CE塁 二二FICATE̲OF INTEEESTE⊇ ̲PERSΩ NS ANp spRPQRATE
DISCLOSURE STATEM:ENT

Petitioner William Geoffroy, certifies that the following is a complete list of
the trial judges, attorneys involved in this case, and all persons, associations of
persons, frrms, partnerships, and corporations having an interest in the outcome of

this case:
a)

b)
C)

d)
e)

0

θ
h)

i)

Petitioner, William Geoffroy.
Respondent, Town of Winchendon, Massachusetts.
Respondent, Scott Livingston.
Respondent, James Kreidler.
Respondent, David Walsh.
Honorable Timothy S. HiIIman, presided over the pre-trial matters
and trial in the United States District Court for the District of
Massachusetts.
Honcrable Sandra L. Lynch, was one ofthe three judge panel who
issued the decision in the First Circuit Court ofAppeals.
Honorable William J. Kayatta, Jr., was one of the three judge panel
who issued the decision in the First Circuit Court ofAppeals.
Honorable David J. Barron, was one ofthe three judge panel who
issued the decision in the First Circuit Court ofAppeals.

Corporate Disclosure Statement
Petitioner, William Geoffroy, in this Writ of Certiorari is an individual.
Petitioner has no knowledge of the Respondent's parent companies, subsidiaries,
partners, Iimited Iiability entity members and manager, trustees, affiliates, or

similar entities

List of All Proceedings
a)

Petitioner fiIed a Charge of Discrimination in the Massachusetts Commission
Against Discrimination; docket numbers 12BEM0874 and 12 WEM003346;
private right of action issued May 4, 2016.
3

b)

Petitioner filed a Complaint in Worcester Superior Court, in Massachusetts;
docket number 1485CV01858; removed to the United States District Court
for the District of Massachusetts on January 7,2015.

c)

Petitioner's complaint proceeds in United States District Court for the
District of Massachusetts; docket number l:14-cv - 4O182-TSH; partial
Summary Judgment granted September 30, 2017; jury returned verdict May
3, 2019 and final judgment issued May 6, 2019.

d)

Petitioner filed an appeal in the Court ofAppeals for the First Circuit; docket
number 19-1573; Panel opinion issued May 14,2020: Petition for Rehearing
En Banc in the Court ofAppeals for the First Circuit denied on June 15,
2020.

4

cヽ

TABLE OF CONTENTS

̀

2

(a) Questions for Review

３

(b) Certificate of Interested Persors

５

(c) Table of Contents
６

(d) Table of Authorities
７

(e) Concise Statement of the Basis for Jurisdiction
８

(0 Constitutional Provisions, Statutes, Ordinances, etc.

ｎ﹀
■■

(g) Statement of the Case

t4

(h) Reasons for Granting the Petition

APPENDIX TABLE OF CONTENTS
Decision of United States District Court for the District of Massachusetts entered
1a
October 2,2017

Final Judgment of United States District Court for the District of Massachusetts
3a
entered May 6, 2019
Decision of the First Circuit Court of Appeals entered May t4, 202O

Denial of Petition for Rehearing En
June 15, 2020

4a

knc in First Circuit Court of Appeals entered
23a

Older Worker s Benefit Protection Act, 29 U.S.C. $ 626

Interview of Catherine Phongsaly dated October 14,
Deposition Tlanscript of Michael Clancy

20ll

25a
28a
33a

5

dゝ

TABLE OF AUTHORITIES

̀

Cases
Cole v.G旦 ⊇ :」堅EE聖±Q武 塁菫」塾Q=LL工 :Lc,199F.Supp.2d208o).:Del.2002)̲17‐
Q理 !笙 Q̲=」 Entermp堅:■1豊 :型 L」L̀≧ ,522

UoS.422(1990

18

7,13,15,18

Statutes
28U.S.C.§ 1254(1)
29U.S.C.§ 626

7

2,7,8,15,16,19‑21

6

(e) CONCISE STATEMENT REGARDING JURISDICT10N
The First Circuit Panel erred when affirming the partial grant of summary

judgment issued against the Petitioner by the District Court below. The decision
conflicts with the plain language of the Older Worker's Benefit Protection Act (29
U.S.C.§

626(D)Oeremater

OWBPA')and the Sup reme Court Case Oubre v

Entergy Operations, Inc. , 522 U.S. 422 (1998). Review is warranted because the
outcome of this case

will influence the rights of older employees who wish to seek

redress against their employers for potential violations of anti age discrimination
laws. The Petitioner is now moving for Writ of Certiorarr.
ThejurlsdК tlonofthisCourttorenewtheJudglnentoftheFirstCrcutis

invoked under 28 U.S.C. $ L254(l). The panel erred when issuing an opinion on May
14,2020,alErnling the decision ofthe l)istrict Court below.The tilne to me a

petition for writ of certiorari was extended from 150 days from the date ofthe lower
court judgment through the Order issued by this Honorable Court on Thursday

March 19,2020.

7

(f)

EU LL TEXT OF S TATUTE

29 U.S.C. S 626(0 provides:
(f) Waiver

(1)

An individual may not waive any right or claim under this chapter
unless the waiver is knowing and voluntary. Except as provided in
paragraph (2), a waiver may not be considered knowing and voluntary
unless at a minimum(A) the waiver is part of an agreement between the individual and
the employer that is written in a manner calculated to be
understood by such individual, or by the average individual
eligible to participate;
(B) the waiver specifically refers to rights or claims arising under
this chapter;
(C) the individual does not waive rights or claims that may arise
after the date the waiver is executed;
(D) the individual waives rights or claims only in exchange for
consideration in addition to anything ofvalue to which the
individual already is entitled;
(E) the individual is advised in writing to consult with an attorney
prior to executing the agreement;
(F) (i) the individual is given a period ofat least 21 days within
which to consider the agreement; or
(ii) if a waiver is requested in connection with an exit incentive
or other employment termination program offered to a group or
class of employees, the individual is given a period ofat least 45
days within which to consider the agreement;
(G) the agreement provides that for a period ofat least 7 days
following the execution of such agreement, the individual may
revoke the agreement, and the agreement shall not become
effective or enforceable until the revocation period has expired;
(H) ifa waiver is requested in connection with an exit incentive or
other employment termination program offered to a group or
class of employees, the employer (at the commencement of the
period specifred in subparagraph (F)) informs the individual in
writing in a manner calculated to be understood by the average
individual eligible to participate, as to(i) any class, unit, or group of individuals covered by such
program, any eligibility factors for such program, and any
time limits applicable to such program; and
(ii)the job titles and ages of aII individuals eligible or
selected for the program, and the ages of all individuals in
the same job classification or organizational unit who are
not eligible or selected for the progtam.
8

(2)

(3)

(4)

A waiver in settlement of a charge frled with the Equal Employment
Opportunity Commission, or an action frled in court by the individual
or the individual's representative, alleging age discrimination of a kind
prohibited under section 623 or 633a ofthis title may not be considered
knowing and voluntary unless at a minimum(A) subparagraphs (A) through (E) ofparagraph (1) have been met;
and
(B) the individual is given a reasonable period of time within which
to consider the settlement agreement.
In any dispute that may arise over whether any ofthe requirements,
conditiorrs, and circumstances set forth in subparagraph (A), (B), (C),
(D), (E), (f), (G), or (H) of paragraph (1), or subparagraph (A) or (B) of
paragraph (2), have been met, the party asserting the validity ofa
waiver shall have the burden of proving in a court of competent
jurisdiction that a waiver was knowing and voluntary pursuant to
paragraph (1) or (2).
No waiver agreement may affect the Commission's rights and
responsibilities to enforce this chapter. No waiver may be used to
justifu interfering with the protected right ofan employee to file a
charge or participate in an investigation or proceeding conducted by
the Commission.

9

色)̲̲STATEMEヽ T̲OE TЦ ■ CASE
I

Staten■ ent ofthe Facts

Petitioner William Geoffroy (hereinafter "Petitioner" or "Geoffroy") became a
police offrcer in the Town of Winchendon in 1985. App. 6a. During June and JuIy of
201l Geogioy dated Catherine Phongsaly(

Phongsaly").App.6a.:During the early

morning hours of October 9, 2011, Geoffroy left a voicemail on Phongsaly's phone
containing profane language and indicating that Phongsaly was "Iucky [he] didn't
kick[her]f'■ ■ing d00r in.''App.6a‐ 7a.

On October 10, 2011, Phongsaly told another Winchendon Police Offrcer,
Sergeant Gerald Gagne ("Gagne"), while he was off duty and patronizing an

establishment where Phongsaly was employed about the messages from Geoffroy.
App. 7a. Gagne involved another Winchendon Police Offrcer, Sergeant Raymond

Anair, who spoke to Phongsaly to offer her the option ofseeking a restraining order,
which she declined.2ヽ pp.7a.

The Winchendon Police Department then opened an investigation into the

incident. App. 7a. The investigation included an interview of Phongsaly, who denied
being in fear of Geoffroy, denied wanting to pursue any 209A options, and denied

wanting any further assistance or involvement from the Department. App. 7a, 32a.
Following the steps taken above, among others, on or about October 17,2017,
Geoffroy was ordered to meet with Chief of Police Scott Livingston ("Livingston")
and Lieutenant David Walsh ("Walsh"), along with a union representative, Martin
Rose ("Rose"). App.

7a. During this meeting, Livingston gave the Geoffroy the

options ofeither resigning, accepting a discipline involving a demotion and a
10

suspension, or be terminated. App. 7a. On or about October 19, 2011, Geoffroy was

ordered to attend a meeting in the Town Manager's Offrce with Town Manager
James Kreidler ("Kreidler"), Walsh, Livingston, union representative Michael

Bombard ("Bombard"), and union counsel Michael Clancy ('Clancy"). App. 7a.

During this meeting on or about October 19, 2011, Kreidler told Geoffroy that his
only option was to resign or be terminated. App. 7a. Kreidler made it clear that
Geoffroy would be permitted a day or two to make his decision. App.42a.47a.

Geoffroy was presented with an agreement proposing a retirement to end
Geoffroy's employment with the Town, which he signed on October 24,2Ol1

("Agreement"). App. 8a. Geoffroy could not open the email attachment containing
the Agreement and asserts he was not able to review it prior to the day he signed it.
App. 8a. While this Agreement provides that Geoffroy was permitted a twenty-one
(21) day review period to consider the Agreement, the Town, by and through

Kreidler, make it clear that he would not be permitted twenty-one (21) days to
review the agreement. App. 8a, 42a,47a.
Clancy testified that Kreidler wanted the Petitioner to make a decision in a
day or two saying, "I think he wanted to know the next day,"

"...it ended up being

inore because this、vas signed on the 24th.′ rhere、vas lnore than one,''and

he wanted the decision in one day." App. 47a. When Clancy was asked

I think

if anyone

11

asked the Respondents if the Petitioner could have more time to consider, Clancy

said, "I didn't think that was an optio1.t" App. 42a.

II.

District Court Proceedings
In April of 2012, Geoffroy filed complaints of age discrimination in the

Massachusetts Commission Against Discrimination ('MCAD), alleging, among

other issues, that the Respondents violated his rights by treating younger
employees more favorably than they treated him. App. 9a. Geoffroy later filed

another complaint in the MCAD on the basis of retaliation by the Respondents.

App. 10a. Geoffroy removed both complaints from the MCAD and filed a complaint
in Massachusetts state superior court alleging unlawful age discrimination,

unlawful retaliation, violations of the OWBPA, and defamation. App. 10a.
Defendants removed the case to the United States District Court for the District of
Massachusetts under federal question jurisdiction. App. 10a.
On January 20, 2OL7 , the Appellees (Defendants) frled Motion for Summary

Judgment on all claims; Geoffroy frled a response opposing summary judgment.
App. 10a-11a. On September 30,2020, the district court entered an order
concluding that Geoffroy had voluntarily waived and released his age

discrimination claims and granted partial summary judgment on those counts. App.
11a. The matter proceeded to a

trial before a jury

on the remaining claims of

t Clancy's

full answer to this question was, 'You're not Mr. Kreidler. I didn't think that was an
option." Upon information and belief, this was a typo and should read, "You don't know Mr. Kreidler
I didn't think that was an option."
2 Petitioner indicates he never received a copy of the agreement containing the waiver until the date
t2

retaliation and defamation. App. 11a. The jury found for the defendants and after a
motion for a new trial was denied, Geoffroy appealed to the First Circuit. App. 12a.

ilI.

First Circuit Court of Appeals
The First Circuit held that the record does not support Petitioner's argument

that the defendants impermissibly shortened his review period. The First Circuit
held that the testimony of Michael Clancy does not support finding a restriction of

the 21-day period, despite the fact that Clancy's testimony clearly states Geoffroy
would have been terminated if he did not sign the agreement ("There was either
going to be a termination or there was going to be an agreement"). App. 47a. This is
an error.

Further, the First Circuit noted that "it is important to point out that the
OWBPA expressly requires only that a waiver or release of an ADEA claim be part
of a written agreement and 'the individual [be] given a period of at least 21 day

within which to consider the agreement."' App. 16a. The First Circuit further cites
the Supreme Court's decision in Oubre, " 'The statutory command is clear: An
employee 'may not waive' an ADEA claim unless the walycrgryelq4ge satisfies the

OWBPA's requirements."' App. 16a. The First Circuit later states that the

requirements of OWBPA do not extend to "a separate written agreement as to
resignation in lieu ofbeing fired." App. 16a. The First Circuit is alleging that there
were two separate agreements in the case at hand

- the written separation

agreement and some other agreement. Not only is this inaccurate, but

it

misinterprets the law.

13

G)

REASANE F'QR GRANIINq ITIE LETITIOI..I

This Court should grant review because the decisions ofthe courts below will
have profound implications in preventing age discrimination against some of the
most vulnerable employees in the country. The decision ofthe First Circuit to affirm

the District Court's partial grant of summary judgment finding the Petitioner's
resigrration to be "voluntary" is in conflict with U.S. Supreme Court precedent and

the plain language ofthe relevant statute. The Older Worker's Benefrt Protection
Act (29 U.S.C.

S

626(0) ('OWBPA") identifres circumstances by which an agreement

may be made between an employee and employer where the employee waives

certain claims. The OWBPA allows for such waivers, but indicates the waivers must
be "knowing and voluntary." 29 U.S.C. S 626(0.

The OWBPA further lists several elements that must be present in order for

the waiver to be found "knowing and voluntary," and one such element is that the
employee must be "...given a period of at least 21 days within which to consider the

agreement..." 11 U.S.C.

S

626(0(1)(F)(i). This petition involves a question of

exceptional importance concerning the statutorily required time period that should
be given to each employee executing a waiver, but was revoked without consequence

from the Petitioner. While the text ofthe Agreement itself executed by Petitioner
provided for 21-days, in practice, Petitioner was told he needed to make the decision

within a day or two or he would be terminated. App. 42a, 47a

First Circuit Decision Fails to Follow Supreme Court Precedent and
Incorrectly Set Aside Witness Testimony

l4

Waiver of age discrimination claims are governed by the Older Worker's
Benefit Protection Act (OWBPA), which was interpreted by the Supreme Court in
Oubre v. Entergy Operations-Iqc .. Oubre v. Entergv Operatrons ,Lnc.,522U.5. 422,
427 (1998); qee alCo 29 U.S.C. $ 626. In Oubre, the court discusses the fact that

employers are permitted to negotiate for the release ofpotential age discrimination
claims against them by employees, but these releases, also called waivers, must
contain certain safeguards for the employees. These safeguards are enumerated

within the OWBPA.
The Oubte court was clear about the application ofthe elements listed in the
OWBPA indicating, "[a]n employee'may not waive'an ADEA claim unless the

waiver or release satisfies the OWBPA's requirements." Oubre at 426-27.In fact,
the Supreme Court noted that a "release can have no effect on [anl ADEA claim
unless it complies with the OWBPA." Oubre at 427. Finally, the court eliminates
the possibility of exceptions or exclusions indicating the "OWBPA governs the effect

under federal law of waivers or releases on ADEA claims and incorporates no
exceptions or qualifrcations." Oubre at 427.|n conclusion, both Congress and courts

alike have found that if there is a violation of the OWBPA, the waiver cannot stop
an employee from pursuing an age discrimination claim. In the case at hand,

Petitioner executed a waiver that cannot be found to be voluntary based on the fact

that Respondent Kreidler effectively limited his review period.
The First Circuit's opinion indicates that the record does not support

Petitioner's contention that he was not permitted the statutorily required 21-day

l5

review period to consider the waiver presented to him by the Respondents.
However, the First Circuit is incorrectly setting aside the clear testimony of witness

Michael Clancy, which was never contradicted by other witnesses.

In the case at hand, the 21-day review period was not giuen to Petitioner. It is
undisputed that Respondent Kreidler wanted Petitioner's decision of whether to
sign the Agreement (containing the waiver) within a day or two, and that
Respondent Kreidler would terminate him if it was not signed. App. 42a,47a. He
was informed ofhis options on or around October 19, 2011 (Petitioner contends he

was not presented with the Agreement at this time and did not review it, but rather
knew his option was to either execute an agreement with the Town to retire or be
terminated2) and he executed the Agreement on October

24,20ll - just

5 days

later, including a weekend. App. 7a-8a. Witness testimony supports the fact that
Petitioner had to make his decision within that time period and he did not have
the statutorily required 21-day period to review it. App. 47a. Further, Respondent

Kreidler wanted the decision within one day, and while Clancy admits it ended up
taking longer to sign, Petitioner would have been terminated without an agreement.
App. 47a.
Despite the plain language of the Older Worker's Benefrt Protection Act,
several other courts have reviewed the issue ofvoluntariness and how the 21-day

review period must be analyzed. In several situations, such as the case at hand, the

Petitioner indicates he never received a copy of the agreement containing the waiver until the date
he signed the Agreement. App. 8a. This is substantiated by other witness testimony. During the
meeting on October 19, 2011, Geoffroy was verbally given the options oftermination or resignation'
2

App.7a.
16

agreement or waiver in question provides for a twenty-one (21) day review period,

but the individual is verbally told they need to make the determination much
quicker than that. Courts have held that the review period must be afforded to the

individual, not just in writing, but actually in practice, for the waiver to be found to
be voluntary.

The United States District Court for the District of Delaware reviewed the
issue of whether a waiver could be considered voluntary when the 21-day review

period was verbally reduced to less than 21 days. The United States District Court
for the district of Delaware held that

it could not be voluntary.

CoIe v. Galqf4g

E!:terlainqent, LLC, 199 F.Supp.2d 208 (D. Del. 2002). Although the waiver signed
by the plaintiff in Cole specifrcally called for the employee to be afforded 2l-days to

review the agreement, the plaintiff indicates he was only given to the end ofthe
following business day to review and execute the agteement. The defendant in Cole
did not dispute this allegation.

In CoIe, the court specifically noted that the "OWBPA specifrcally states that
an employee must be given twenty-one days to consider the waiver." CoIq at 213.

The defendant in CoIg does not dispute the assertion that the plaintiff was told to
execute the agreement by the end ofthe following day, and the court found that this

"effectively reduced [the review period] from twenty-one days to one day." QoIe at
213. The court held the waiver was not knowing and voluntary because "[a]llowing
one day to review a document

ofthe type in question seems insufflcient under either

Title VII or the ADEA." CoIe at 213. The court further noted that "ftly limiting

17

Cole's review to one day, [the defendant] effectively 'rushed' the plaintiff into

signing the document." Cole at 274.
The facts provided in Cole is almost identical to the case at hand. The
Agreement executed by Petitioner appears on its face to comply with the OWBPA,

but in practice, the Respondents violated the OWBPA by telling Petitioner that he
only had a few days to sign the Agreement or he would be terminated. App. 47a.

II

Misstatement of the Plain Language of 29 U.S.C. S 626(I) Creates an
Unintended and Dangerous Exception Not Contemplated or
Intended by Congress
Further, the First Circuit noted that "it is important to point out that the

OWBPA expressly requires only that a waiver or release of an ADEA claim be part

ofa written agreement and'the individual [be] given a period ofat least 21 day
within which to consider the agreement."'The First Circuit further cites the
Supreme Court's decision in Oubre, " 'The statutory command is clear: An employee

'may not waive' an ADEA claim unless the yr4ivel ellrelease satisfies the OWBPA's
requirements."' App. 16a. The First Circuit later states that the requirements of
OWBPA do not extend to "a separate written agreement as to resigrration in lieu of
being fired."
Here, the First circuit not only misunderstood the facts but also the law. The

First Circuit is implying here that as long as the written waiver or separation
agreement satisfres the OWBPA, the Respondents were within their rights to
demand a decision be made within one day (or a shorter review period than the

18

statutorily required 2l-days). A thorough review of the precise wording of 26 U.S.C.
S

626(0 is required.

(f) Waiver (1) An individual may not waive any right or claim under
this chapter unless the waiver is knowing and voluntary. Except as
provided in paragraph (2), a waiver may not be considered knowing
and voluntary unless at a minimum(A) the waiver is part of an agreement between the individual and
the employer that is written in a manner calculated to be understood
by such individual, or by the average individual elig:ible to participate;
(B) the waiver specifrcally refers to rights or claims arising under
this chapter;
(C) the individual does not waive rights or claims that may arise after
the date the waiver is executed;
(D) the individual waives rights or claims only in exchange for
consideration in addition to anything of value to which the individual
already is entitled;
(E) the individual is advised in writing to consult with an attorney
prior to executing the agreement;
(F)

(i) the individual is given a period of at least 21 days within which to
consider the agreement: or
(ii) if a waiver is requested in connection with an exit incentive or
other employment termination program offered to a group or class
ofemployees, the individual is given a period ofat least 45 days within
which to consider the agreement;
(G) the agreement provides that for a period of at least 7 days
following the execution of such agreement, the individual may revoke
the agreement, and the agreement shall not become effective or
enforceable until the revocation period has expired;
(H) if a waiver is requested in connection with an exit incentive or
other employment termination program offered to a group or class
of employees, the employer (at the commencement of the period
specifred in subparagraph (F)) informs the individual in writing in a
manner calculated to be understood by the average individual eligible
to participate, as to(i) any class, unit, or group of individuals covered by such program,
any eligibility factors for such program, and any time limits applicable
to such program; and
(ii) the job titles and ages of aII individuals eligible or selected for the
program, and the ages of all individuals in the same job classification
or organizational unit who are not eligible or selected for the program.
26 U.S.C. S 626(0 (emphasis added).
19

A thorough review ofthe entire statute makes the issue clear

- certain

requirements are required to be in writing. For example, subparts (A), (B), (E), and
(G) all require

that these be written in the waiver. The 21-day review period, the

requirement challenged in this matter, does not state that it must be written. The
requirement is that the "individual is given a period ofat least 21 days". The
simple fact that he was issued a written agreement claiming to afford him 21 days
does not suflice. That. together

with witness testimony that Kreidler wanted a

decision "the next day," that more time "was not an option," and that he wanted the
decision "in one day" even though

it "ended up being more," shows that Kreidler

effectively reduced his statutorily permitted 21-day review period to a few short
days.

That should be the end ofthe analysis

- he was not "given" 2l-days

to review

the agreement, and as such, his waiver cannot be found to be voluntary. The
elements in 29 U.S.C.

S

626(0 are required elements, not factors. As such, the First

Circuit's statement that "Geoffroy's choice not to revoke the separation agreement
in the seven-day OWBPA revocation period following his sigrring bulwarks our
conclusion" is inappropriate. The analysis ofwhether his resignation was

voluntarily ends at the determination that the 21-day review period was effectively
cut short by Kreidler.

III.

Conclusion
For the First Circuit's opinion to be established as case law, every employee

being presented with a severance agreement containing a waiver of age

20

discrimination claims is in danger of being manipulated and bullied into signing
such a waiver against their desires and intentions. To manipulate an employee to
execute such a waiver, all an employer needs to do is to include the 2l-days revrew

period in the written waiver, and threaten termination if

it is not signed by the next

day. This behavior, as happened to Petitioner, wiII allow employers to by-pass the

much needed and very important, statutorily required 21-day review period.

Allowing employers to pressure employees, who are already in a position of
weakness, to make this decision before the expiration of their statutorily mandated
21-day period of review,

will dramatically weaken the Older Worker's Benefrt

Protection Act and impermissibly shift the balance of power almost entirely into the
employers hands.
Congress demanded more when

it established that the employee must be

"given a period ofat least 21 days within which to consider the agreement." The

First Circuit's opinion makes the OWBPA, which is intended to be a powerful and
protective measure for employees over the age of forty, nothing more than empty
Iegislation devoid of consequence or results.

WILLIAM GEOFFROY,
Petitioner,
his
Dated: October 9,2020
Danle e allahan GilI, Esq.
Supreme Court Bar # 313433
Callahan Law Group, LLC
400 TradeCenter, Suite 5900
Woburn, MA 01801
Phone: (617) 657-3489
dcallahan@callahanlawgroup.com
21

